Neutral
As of: April 24, 2019 9:01 PM Z

Commonwealth v. Carter
Supreme Judicial Court of Massachusetts
October 4, 2018, Argued; February 6, 2019, Decided
SJC-12502.
Reporter
481 Mass. 352 *; 115 N.E.3d 559 **; 2019 Mass. LEXIS 83 ***; 2019 WL 453373

COMMONWEALTH vs. MICHELLE CARTER.
Prior History: [***1] Bristol. INDICTMENT found and
returned in the Superior Court Department on February
6, 2015.

speech was unprotected; [4]-Her conviction as a
youthful offender was proper because her crime
inherently inflicted serious bodily harm; [5]-A
"reasonable juvenile" standard did not apply because
her conduct was subjectively reckless.
Outcome
Judgment affirmed.

The case was heard by Lawrence Moniz, J.
The Supreme Judicial Court granted an application for
direct appellate review.

LexisNexis® Headnotes

Commonwealth v. Carter, 474 Mass. 624, 2016 Mass.
LEXIS 384, 52 N.E.3d 1054 (July 1, 2016)

Core Terms
truck, suicide, wanton, involuntary manslaughter,
reckless, text message, juvenile, reckless conduct,
commit suicide, youth offender, act act act,
circumstances, generator, verbal, carbon monoxide,
infliction, phone, kill, convicted, exchanged, beyond a
reasonable doubt, serious bodily harm, defendant
argues, common law, law law law, communications,
instructions, manslaughter, indictment, causation

Case Summary
Overview
HOLDINGS:
[1]-Sufficient
evidence
supported
defendant's involuntary manslaughter conviction for
ordering her boyfriend to complete his suicide because
her inculpatory statement was corroborated, and she
overpowered his will, creating a high likelihood of
substantial harm; [2]-Involuntary manslaughter law was
not unconstitutionally vague as applied because it gave
notice she might be so charged for reckless verbal
conduct causing a victim's suicide; [3]-Her conviction did
not offend free speech because her conduct was not
necessarily related to speech, and criminal conduct

Evidence > ... > Exemptions > Confessions > Corpu
s Delicti Doctrine
HN1[

] Corpus Delicti Doctrine

A criminal conviction cannot be based solely on the
defendant's extrajudicial confession.

Evidence > ... > Exemptions > Confessions > Corpu
s Delicti Doctrine
HN2[

] Corpus Delicti Doctrine

The corroboration rule requires only that there be some
evidence, besides a confession, that a criminal act was
committed by someone, that is, that the crime was real
and not imaginary. Indeed, in a homicide case, the
corroborating evidence need only tend to show that the
alleged victim is dead.

Criminal Law & Procedure > Trials > Bench Trials
HN3[

] Bench Trials

Page 2 of 14
481 Mass. 352, *352; 115 N.E.3d 559, **559; 2019 Mass. LEXIS 83, ***1
Judges in jury-waived trials are presumed to know and
correctly apply the law.

Governments > Legislation > Vagueness
HN4[

] Vagueness

A statute is unconstitutionally vague if people of
common intelligence must necessarily guess at its
meaning. If a statute has been clarified by judicial
explanation, however, it withstands a challenge on
grounds of unconstitutional vagueness.

Criminal Law & Procedure > ... > Homicide,
Manslaughter & Murder > Involuntary
Manslaughter > Elements
Criminal Law & Procedure > Criminal
Offenses > Homicide, Manslaughter &
Murder > Involuntary Manslaughter
Criminal Law & Procedure > Criminal
Offenses > Homicide, Manslaughter &
Murder > Voluntary Manslaughter
HN5[

] Elements

Manslaughter is a common-law crime that has not been
codified by statute in Massachusetts. It has long been
established in the common law of Massachusetts that
wanton or reckless conduct that causes a person's
death constitutes involuntary manslaughter.

Criminal Law & Procedure > Criminal
Offenses > Homicide, Manslaughter &
Murder > Involuntary Manslaughter
Governments > Legislation > Vagueness
HN6[

] Involuntary Manslaughter

The common law of Massachusetts provides sufficient
notice that a person may be charged with involuntary
manslaughter for reckless or wanton conduct, including
verbal conduct, causing a victim to commit suicide.

Constitutional Law > ... > Fundamental

Freedoms > Freedom of Speech > Advocacy of
Illegal Action
Criminal Law & Procedure > ... > Homicide,
Manslaughter & Murder > Involuntary
Manslaughter > Elements
HN7[

] Advocacy of Illegal Action

The crime of involuntary manslaughter proscribes
reckless or wanton conduct causing the death of
another. The statute makes no reference to restricting or
regulating speech, let alone speech of a particular
content or viewpoint: the crime is directed at a course of
conduct, rather than speech, and the conduct it
proscribes is not necessarily associated with speech. A
defendant cannot escape liability just because he or she
happens to use words to carry out his or her illegal act.

Constitutional Law > ... > Fundamental
Freedoms > Freedom of Speech > Advocacy of
Illegal Action
HN8[

] Advocacy of Illegal Action

It has never been deemed an abridgment of freedom of
speech to make a course of conduct illegal merely
because the conduct was in part initiated, evidenced, or
carried out by means of language, either spoken,
written, or printed. Speech or writing used as an integral
part of conduct in violation of a valid criminal statute is
not protected by the First Amendment.

Constitutional Law > ... > Fundamental
Freedoms > Freedom of Speech > Advocacy of
Illegal Action
HN9[

] Advocacy of Illegal Action

The First Amendment permits restrictions upon the
content of speech in a few limited areas which have
never been thought to raise any constitutional problems,
including speech integral to criminal conduct. Courts do
not apply the narrow tailoring required by strict scrutiny
in these contexts but rather determine whether the
speech at issue falls within these well-defined and
narrowly limited classes of speech.

Criminal Law & Procedure > Criminal

Page 3 of 14
481 Mass. 352, *352; 115 N.E.3d 559, **559; 2019 Mass. LEXIS 83, ***1
Offenses > Crimes Against Persons
Criminal Law & Procedure > Juvenile
Offenders > Criminal Offenses
HN10[

] Crimes Against Persons

The youthful offender statute authorizes an indictment
against a juvenile who is alleged to have committed an
offense involving the infliction or threat of serious bodily
harm. Mass. Gen. Laws ch. 119, § 54. By its terms, the
statute requires that the offense involve the infliction of
serious bodily harm, not that the defendant himself or
herself be the one who directly inflicted it.

Criminal Law & Procedure > ... > Acts & Mental
States > Mens Rea > Recklessness
HN11[

] Recklessness

Whether conduct is wanton or reckless is determined
based either on the defendant's specific knowledge or
on what a reasonable person should have known in the
circumstances. Based on the objective measure of
recklessness, a defendant's actions constitute wanton or
reckless conduct if an ordinary normal person under the
same circumstances would have realized the gravity of
the danger. If based on a subjective measure, i.e., the
defendant's own knowledge, grave danger to others
must have been apparent and the defendant must have
chosen to run the risk rather than alter his or her
conduct so as to avoid the act or omission which caused
the harm.

Headnotes/Summary
Headnotes
MASSACHUSETTS OFFICIAL REPORTS
HEADNOTES

Homicide > Youthful Offender Act > Due Process of
Law > Vagueness of statute > Constitutional
Law > Vagueness of statute > Wanton or Reckless
Conduct > Evidence > Verbal conduct > Expert
opinion > Witness > Expert
At a jury-waived criminal trial, the evidence was
sufficient to convict the defendant, as a youthful
offender, of involuntary manslaughter for the suicide

death of the victim, where the defendant’s extrajudicial
confession that she ordered the victim back into the
truck in which he died was corroborated by the victim’s
death from carbon monoxide poisoning, by text
messages exchanged with the victim encouraging him
to commit suicide, and by the fact that the defendant
and the victim were in voice contact via cellular
telephone while the suicide was in progress; and where
the judge’s finding of wanton and reckless conduct on
the defendant’s part that created a high degree of
likelihood that substantial harm would result to the victim
included the concept of coercion, in the sense of the
defendant overpowering the will of the victim (a
vulnerable, confused, mentally ill eighteen year old), and
was sufficient to prove causation beyond a reasonable
doubt. [360-363]
There was no merit to the criminal defendant’s claim
that she lacked fair notice that she could be convicted of
involuntary manslaughter for her role in the victim’s
suicide, where the defendant, via text messages and
telephone calls, wantonly or recklessly instructed the
victim to kill himself, which instructions caused his
death; and where conduct similar to that of the
defendant has been deemed unlawful in the
development of the common law. [363-365]
The defendant’s conviction of involuntary manslaughter
for her role in the victim’s suicide did not violate her right
to free speech under the First Amendment to the United
States Constitution and art. 16 of the Massachusetts
Declaration of Rights, where the crime of involuntary
manslaughter proscribes reckless or wanton conduct
causing the death of another without reference to
restricting or regulating speech, and where the only
speech made punishable was speech integral to a
course of criminal conduct, i.e., the defendant’s reckless
and wanton text messages and cellular telephone calls,
which pressured the victim (a mentally ill, vulnerable
young person) and preyed upon his well-known
weaknesses,
fears,
anxieties,
and
promises,
overcoming his willpower and thereby coercing him to
commit suicide; and where, even if this court were to
apply strict scrutiny to the verbal conduct at issue, the
restriction on speech has been narrowly circumscribed
to serve a compelling purpose in preserving life. [365369]
The defendant was properly convicted of involuntary
manslaughter as a youthful offender for her role in the
victim’s suicide, where G. L. c. 119, § 54, requires that
the offense involve the infliction of serious bodily harm,
not that [*353] the defendant herself be the one who

Page 4 of 14
481 Mass. 352, *353; 115 N.E.3d 559, **559; 2019 Mass. LEXIS 83, ***1
directly inflicted it. [369]
At the jury-waived trial of an indictment charging the
defendant with involuntary manslaughter as a youthful
offender, the record amply supported the judge’s finding
that the defendant’s actions were wanton or reckless
under a subjective measure based on her knowledge of
the danger to the victim and on her choice to run the risk
that he would comply with her instruction to get back
into the truck in which he died from carbon monoxide
poisoning; further, the judge in his sentencing
memorandum took into account the defendant’s age
and maturity when evaluating her actions, was familiar
with the relevant case law, and was mindful of the
general principles regarding juvenile brain development.
[369-370]
At a criminal trial, the judge did not abuse his discretion
in excluding expert testimony by a forensic psychologist
as not being of aid to the finder of fact in the
circumstances of the case. [370-371]
Counsel: Daniel N. Marx (William W. Fick, Nancy
Gertner, Joseph P. Cataldo, & Cornelius J. Madera, III,
also present) for the defendant.

Shoshana E. Stern, Assistant District Attorney
(Maryclare Flynn, Assistant District Attorney, also
present) for the Commonwealth.

Eva G. Jellison, for youth advocacy division of the
Committee for Public Counsel Services & another, amici
curiae, submitted a brief.

Brian Hauss, of New York, Matthew R. Segal, & Ruth A.
Bourquin, for American Civil Liberties Union & another,
amici curiae, submitted a brief.
Judges: Present: GANTS, C.J., LENK, GAZIANO, LOWY,
BUDD, CYPHER, & KAFKER, JJ.
Opinion by: KAFKER

age eighteen. In Commonwealth v. Carter, 474 Mass.
624, 52 N.E.3d 1054 (2016) (Carter I), we affirmed the
Juvenile Court judge's denial of the motion to dismiss
the youthful offender indictment, [***2] “conclud[ing]
that there was probable cause to show that the coercive
quality [**562] of the defendant's verbal conduct
overwhelmed whatever willpower the eighteen year old
victim had to cope with his depression, and that but for
the defendant's admonishments, pressure, and
instructions, the victim would not have gotten back into
[his] truck and poisoned himself to death.” Id. at 635636. Thereafter, the defendant waived her right to a jury
trial, and the case was tried to a judge in the Juvenile
Court over several days. The defendant was convicted
as charged and has [*354] appealed. We now consider
whether the evidence at trial was sufficient to support
the judge's finding of proof beyond a reasonable doubt
that the defendant committed involuntary manslaughter
as a youthful offender, and whether the other legal
issues raised or revisited by the defense, including that
the defendant's verbal conduct was protected by the
First Amendment to the United States Constitution,
require reversal of the conviction. We conclude that the
evidence was sufficient to support the judge's finding of
proof beyond a reasonable doubt that the defendant
committed involuntary manslaughter as a youthful
offender, and that the other legal issues presented by
the defendant, including [***3] her First Amendment
claim, lack merit. We therefore affirm.1
Facts. In Carter I, 474 Mass. at 625-630 & nn.3-8, we
discussed at length the facts before the grand jury,
including the numerous text messages exchanged
between the defendant and the victim in the days
leading up the victim's death on July 12, 2014. Viewed
in the light most favorable to the Commonwealth,
Commonwealth v. Latimore, 378 Mass. 671, 676-677,
393 N.E.2d 370 (1979), the evidence supporting the
defendant's conviction was not substantially different at
trial and revealed the following facts.
On July 13, 2014, the victim's body was found in his
truck, which was parked in a store parking lot in
Fairhaven. He had committed suicide by inhaling carbon
monoxide that was produced by a gasoline-powered
water pump located in the truck.

Opinion
1 We

[**561] KAFKER, J. At age seventeen, Michelle Carter
was charged with involuntary manslaughter as a
youthful offender for the suicide death of Conrad Roy,

acknowledge the amicus briefs submitted by the youth
advocacy division of the Committee for Public Counsel
Services and the Massachusetts Association of Criminal
Defense Lawyers, and by the American Civil Liberties Union
and the American Civil Liberties Union of Massachusetts.

Page 5 of 14
481 Mass. 352, *354; 115 N.E.3d 559, **562; 2019 Mass. LEXIS 83, ***3
The defendant, who lived in Plainville, and the victim,
who divided his time between his mother's home in
Fairhaven and his father's home in Mattapoisett, first
met in 2012, when they were both visiting relatives in
Florida. Thereafter, they rarely saw each other in
person, but they maintained a long-distance relationship
by electronic text messaging2 and cellular telephone
(cell phone) conversations. A frequent subject of their
communications was the victim's fragile mental health,
including his suicidal thoughts. [***4] Between October
2012 and July 2014, the victim attempted suicide
several times by various means, including overdosing
on over-the-counter medication, drowning, water
poisoning, and suffocation. None of these attempts
succeeded, as the victim abandoned each attempt or
sought rescue.
[*355] At first, the defendant urged the victim to seek
professional help for his mental illness. Indeed, in early
June 2014, the defendant, who was planning to go to
McLean Hospital for treatment of an eating disorder,
asked the victim to join her, saying that the
professionals there could help him with his depression
and that they [**563] could mutually support each
other. The victim rebuffed these efforts, and the tenor of
their communications changed. As the victim continued
researching suicide methods and sharing his findings
with the defendant, the defendant helped plan how,
where, and when he would do so,3 and downplayed his

fears about how his suicide would affect his family.4 She
also repeatedly chastised [*356] him for his indecision
and delay, texting, for example, that he “better not be
bull shiting me and saying you're gonna do this and then
purposely get caught” and made him “promise” to kill
himself.5 The trial judge [***5] found that the [**564]
defendant's actions from [*357] June 30 to July 12
constituted wanton or reckless conduct in serious
disregard of the victim's well-being, but that this
behavior did not cause his death. This and other
evidence, however, informed and instructed the judge
about the nature of their relationship and the
defendant's understanding of “the feelings that he has
exchanged with her — his ambiguities, his fears, his
concerns,” on the next night.
In the days leading to July 12, 2014, the victim
continued planning his suicide, including by securing a
water pump that he would use to generate carbon

2 Voluminous

text messages between the defendant and victim
— apparently their entire text history — were admitted in
evidence.
3 For

P.M.,

example, on July 7, 2014, between 10:57 P.M. and 11:08
they exchanged the following text messages:

DEFENDANT: “Well there's more ways to make CO. Google
ways to make it… .”
VICTIM: “Omg”
DEFENDANT: “What”

think u should do the generator because I don't know much
about the pump and with a generator u can't fail”
See Commonwealth v. Carter, 474 Mass. 624, 626 n.4, 52
N.E.3d 1054 (2016) (Carter I).
4 During

the evening of July 11 and morning of July 12, 2014,
the victim and the defendant exchanged the following text
messages:

VICTIM: “portable generator that's it”
DEFENDANT: “That makes CO?”

VICTIM: “I have a bad feeling tht this is going to create a lot of
depression between my parents/sisters”

VICTIM: “yeah! It's an internal combustion engine.”

…

DEFENDANT: “Do you have one of those?”

DEFENDANT: “I think your parents know you're in a really bad
place. Im not saying they want you to do it, but I honestly feel
like they can except it. They know there's nothing they can do,
they've tried helping, everyone's tried. But there's a point that
comes where there isn't anything anyone can do to save you,
not even yourself, and you've hit that point and I think your

VICTIM: “There's one at work.”
Similarly, on July 11, 2014, at 5:13 P.M., the defendant sent
the victim the following text message: “… Well in my opinion, I

Page 6 of 14
481 Mass. 352, *357; 115 N.E.3d 559, **564; 2019 Mass. LEXIS 83, ***5
monoxide in his closed truck.6 On July 12, the victim
parents know you've hit that point. You said you're mom saw a
suicide thing on your computer and she didn't say anything. I
think she knows it's on your mind, and she's prepared for it”

DEFENDANT: “No, you're not, Conrad. Last night was it. You
keep pushing it off and you say you'll do it but u never do. Its
always gonna be that way if u don't take action”

DEFENDANT: “Everyone will be sad for a while, but they will get
over it and move on. They won't be in depression I won't let
that happen. They know how sad you are and they know that
you're doing this to be happy, and I think they will understand
and accept it. They'll always carry u in their hearts”

DEFENDANT: “You're just making it harder on yourself by
pushing it off, you just have to do it”

…

DEFENDANT: “Do u wanna do it now?”
VICTIM: “Is it too late?”
VICTIM: “Idkk it's already light outside”

VICTIM: “i don't want anyone hurt in the process though”
VICTIM: “I meant when they open the door, all the carbon
monoxide is gonna come out they can't see it or smell it.
whoever opens the door”
DEFENDANT: “They will see the generator and know that you
died of CO… .”

VICTIM: “I'm gonna go back to sleep, love you I'll text you
tomorrow”
DEFENDANT: “No? Its probably the best time now because
everyone's sleeping. Just go somewhere in your truck. And no
one's really out right now because it's an awkward time”
DEFENDANT: “If u don't do it now you're never gonna do it”

…
DEFENDANT: “And u can say you'll do it tomorrow but you
probably won't”

VICTIM: “Idk I'm freaking out again”
…

See Carter I, 474 Mass. at 626 n.4.

DEFENDANT: “I thought you wanted to do this. The time is right
and you're ready, you just need to do it! You can't keep living
this way. You just need to do it like you did last time and not
think about it and just do it babe. You can't keep doing this
every day”
VICTIM: “I do want to. but like I'm freaking for my family. I
guess”

At various times between July 4 and July 12, 2014, the
defendant and the victim exchanged several similar text
messages:
DEFENDANT: “You're gonna have to prove me wrong because I
just don't think you really want this. You just keeps pushing it
off to another night and say you'll do it but you never do”
…

VICTIM: “idkkk”
DEFENDANT: “Conrad. I told you I'll take care of them. Everyone
will take care of them to make sure they won't be alone and
people will help them get thru it. We talked about this, they will
be okay and accept it. People who commit suicide don't think
this much and they just do it”
See Carter I, 474 Mass. at 627 n.5.
5 On

July 12, 2014, between 4:25 A.M. and 4:34
exchanged the following text messages:

A.M.,

they

DEFENDANT: “SEE THAT'S WHAT I MEAN. YOU KEEP
PUSHING IT OFF! You just said you were gonna do it tonight
and now you're saying eventually… .”
…
DEFENDANT: “But I bet you're gonna be like ‘oh, it didn't work
because I didn't tape the tube right or something like that’ … I
bet you're gonna say an excuse like that”
…
DEFENDANT: “Do you have the generator?”

DEFENDANT: “So I guess you aren't gonna do it then, all that for
nothing”

VICTIM: “not yet lol”

DEFENDANT: “I'm just confused like you were so ready and
determined”

DEFENDANT: “WELL WHEN ARE YOU GETTING IT”

VICTIM: “I am gonna eventually”

DEFENDANT: “You better not be bull shiting me and saying
you're gonna do this and then purposely get caught”

VICTIM: “I really don't know what I'm waiting for . . but I have
everything lined up”

…

…

Page 7 of 14
481 Mass. 352, *357; 115 N.E.3d 559, **564; 2019 Mass. LEXIS 83, ***5
drove his truck to a local store's parking lot [*358]
[**565] and started the pump. While the pump was
operating, filling [***6] the truck with carbon monoxide,
the defendant and victim were in contact by cell phone.
Cell phone records showed that one call of over forty
minutes had been placed by the victim to the defendant,
and a second call of similar length by the defendant to
the victim, during the time when police believe the victim
was in his truck committing suicide. There is no
contemporaneous record of what the defendant and
victim said to each other during those calls.

DEFENDANT: “You just need to do it Conrad or I'm gonna get
you help”
DEFENDANT: “You can't keep doing this everyday”
VICTIM: “Okay I'm gonna do it today”
DEFENDANT: “Do you promise”
VICTIM: “I promise babe”
VICTIM: “I have to now”
DEFENDANT: “Like right now?”
VICTIM: “where do I go? :(”
DEFENDANT: “And u can't break a promise. And just go in a
quiet parking lot or something” (emphasis added).
See Carter I, 474 Mass. at 628 n.6.
6 During

that same time period, the defendant carried out what
the prosecutor called a “dry run.” On July 10 — two days
before the victim's suicide — the defendant sent text
messages to two friends, stating that the victim was missing,
that she had not heard from him, and that his family was
looking for him. She sent similar messages to those friends
the following day, stating that the victim was still missing and
that she was losing hope. In fact, at that time, the defendant
was in communication with the victim and knew he was not
missing. She also asked a friend in a text message, “Is there
any way a portable generator can kill you somehow? Because
he said he was getting that and some other tools at the store,
and he said he needed to replace the generator at work and
fix stuff … but he didn't go to work today so I don't know why
he would have got that stuff.” In fact, the defendant and the
victim had previously discussed the use of a generator to
produce carbon monoxide. As the Commonwealth argued at
trial, this dry run demonstrated the defendant's motive to gain
her friends' attention and, once she had their attention, not to
lose it by being exposed as a liar when the victim failed to
commit suicide. Arguably, these desires caused her to
disregard the clear danger to the victim.

The defendant, however, sent a text to a friend at 8:02
P.M., shortly after the second call: “he just called me and
there was a loud noise like a motor and I heard moaning
like someone was in pain, and he wouldn't answer when
I said his name. I stayed on the phone for like 20
minutes and that's all I heard.” And at 8:25 P.M., she
again texted that friend: “I think he just killed himself.”
She sent a similar text to another friend at 9:24 P.M.: “He
called me, and I heard like muffled sounds and some
type of motor running, and it was like that for 20
minutes, and he wouldn't answer. I think he killed
himself.” Weeks later, on September 15, 2014, she
texted the first friend again, saying in part:
“I failed [the victim] I wasn't supposed to [***7] let
that happen and now I'm realizing I failed him. [H]is
death is my fault like honestly I could have stopped
him I was on the phone with him and he got out of
the car because it was working and he got scared
and I fucking told him to get back in … because I
knew he would do it all over again the next day and
I couldn't have him live the way he was living
anymore I couldn't do it I wouldn't let him.”
The judge found that the victim got out of the truck,
seeking fresh air, in a way similar to how he had
abandoned his prior [*359] suicide attempts. The judge
also focused his verdict, as we predicted in Carter I, 474
Mass. at 634, on “those final moments, when the victim
had gotten out of his truck, expressing doubts about
killing himself.” The judge found that when the
defendant realized he had gotten out of the truck, she
instructed him to get back in, knowing that it had
become a toxic environment and knowing the victim's
fears, doubts, and fragile mental state. The victim
followed that instruction. Thereafter, the defendant,
knowing the victim was inside the truck and that the
water pump was operating — the judge noted that she
could hear the sound of the pump and the victim's
coughing — took no [***8] steps to save him. She did
not call emergency personnel, contact the victim's
family,7 or instruct him to get out of the truck. The victim
remained in the truck and succumbed to the carbon
monoxide. The judge concluded that the defendant's
actions and her failure to act constituted, “each and all,”
wanton and reckless conduct that caused the victim's
death.

7 The

defendant eventually texted the victim's sister, but not
until 10:18 P.M., more than two hours after the second lengthy
phone call with the victim. In that text, the defendant asked,
“Do you know where your brother is?” and did not explain what
she knew about the victim.

Page 8 of 14
481 Mass. 352, *359; 115 N.E.3d 559, **565; 2019 Mass. LEXIS 83, ***8
Discussion. In Carter I, we considered whether there
was probable cause for the grand jury to indict the
defendant as a youthful offender for involuntary
manslaughter, whereas here we consider whether the
evidence at trial was sufficient to support her conviction
of that offense beyond a reasonable doubt, a much
higher standard for the Commonwealth to meet. In
Carter I, however, we also addressed and resolved
several legal principles that govern this case. We
rejected the defendant's claim that her words to the
victim, [**566] without any physical act on her part and
even without her physical presence at the scene, could
not constitute wanton or reckless conduct sufficient to
support a charge of manslaughter. Carter I, 474 Mass.
at 632-633. Rather, we determined that verbal conduct
in appropriate circumstances could “overcome a
person's willpower to live, and therefore [***9] … be the
cause of a suicide.” Id. at 633. We also ruled that “there
was ample evidence to establish probable cause that
the defendant's conduct was wanton or reckless under
either a subjective or objective standard.” Id. at 635.
See id. at 631, quoting Commonwealth v. Pugh, 462
Mass. 482, 496-497, 969 N.E.2d 672 (2012) (wanton or
reckless conduct may be “determined based either on
the defendant's specific knowledge or on what a
reasonable person should [*360] have known in the
circumstances”). As we explained, “an ordinary person
under the circumstances would have realized the gravity
of the danger posed by telling the victim, who was
mentally fragile, predisposed to suicidal inclinations, and
in the process of killing himself, to get back in a truck
filling with carbon monoxide.” Carter I, supra at 635. We
further explained that “the defendant — the victim's girl
friend, with whom he was in constant and perpetual
contact — on a subjective basis knew that she had
some control over his actions.” Id. We also rejected the
defendant's claims that the involuntary manslaughter
statute, G. L. c. 265, § 13, was unconstitutionally vague
as applied to her, Carter I, supra at 631 n.11; that her
reckless or wanton speech having a direct, causal link to
the specific victim's suicide was protected under the
First Amendment or art. 16 of the Massachusetts
Declaration of Rights, Carter I, supra at 636 n.17; and
that her [***10] offense did not involve the infliction or
threat of serious bodily harm, as required by G. L. c.
119, § 54, the youthful offender statute, Carter I, supra
at 637 n.19. For the most part, we decline to revisit
these legal issues today, as we discern no error in our
earlier analysis. With these principles in mind, we turn to
the defendant's arguments on appeal, providing further
explication, particularly on the First Amendment claim,
where we deem necessary or appropriate.

[ ] 1. Sufficiency of the evidence. The defendant
argues that her conviction was unsupported by sufficient
evidence.8 In particular, she argues that, to the extent
her conviction was based on the victim's getting out of
the truck and her ordering him back into it, it was
improperly based on her after-the-fact statement, in her
text message to a friend, that the victim “got out of the
[truck] because it was working and he got scared and I
fucking told him to get back in,” a statement she asserts
is uncorroborated. It is true that HN1[ ] a conviction
cannot be based solely on the defendant's ex- [*361]
trajudicial confession. Commonwealth v. Forde, 392
Mass. 453, 458, 466 N.E.2d 510 (1984). The [**567]
defendant's
statement,
however,
was
not
uncorroborated. HN2[ ] “The corroboration rule
requires only that there be some evidence, besides the
confession, [***11] that the criminal act was committed
by someone, that is, that the crime was real and not
imaginary.” Id. Indeed, “in a homicide case, the
corroborating evidence need only tend to show that the
alleged victim is dead.” Id.
Here, the defendant's statement was more than
adequately corroborated not only by the victim's death
but also by text messages exchanged with the victim
encouraging him to commit suicide, and by the fact that
the defendant and the victim were in voice contact while
the suicide was in progress — that is, despite the
physical distance between them, the defendant was
able to communicate with the victim, hear what was
going on in the truck, and give him instructions. The trial
judge also expressly “looked for independent
corroboration of some of the statements that [the
defendant] made, to make sure that there was no undue
reliance on any one source of evidence.” The judge
emphasized that the “photos taken at the scene of the
crime, where [the victim's] truck was located, clearly
illustrate the location of the water pump immediately

8 The

defendant suggests that she was indicted for involuntary
manslaughter based on wanton or reckless conduct, but
wrongly convicted based on a wanton or reckless failure to
act. In our view, the indictment charging the defendant with
manslaughter “by wanton and reckless conduct” subsumed
both theories. See Commonwealth v. Pugh, 462 Mass. 482,
497, 969 N.E.2d 672 (2012), quoting Commonwealth v.
Welansky, 316 Mass. 383, 399, 55 N.E.2d 902 (1944) (“the
requirement of ‘wanton or reckless conduct’ may be satisfied
by either the commission of an intentional act or an intentional
‘omission where there is a duty to act’”). Moreover, it is clear
from the judge's findings that the conviction was not based
solely on a failure to act but also on the defendant's affirmative
conduct, namely, directing the victim to get back in the truck.

Page 9 of 14
481 Mass. 352, *361; 115 N.E.3d 559, **567; 2019 Mass. LEXIS 83, ***11
adjacent to where he would have been sitting in the
truck, next to his upper torso and [***12] his head,
thereby giving a good explanation to [the defendant's
description] that the noise was loud within the truck.
[The defendant] at that point, therefore, had reason to
know that [the victim] had followed her instruction and
had placed himself in the toxic environment of that
truck.” Clearly, the defendant was not “confessing” to an
imaginary crime. In sum, the judge was entitled to credit
the defendant's statement, and the corroborating details,
that the victim had in fact gotten out of the truck and that
the defendant ordered him back into the truck, ultimately
causing his death.

further found that this conduct caused the victim's death
beyond a reasonable doubt. His finding of causation in
this context, at that precise moment in time, includes the
concept of coercion, in the sense of overpowering the
victim's will.

The defendant also argues that the judge did not
properly apply the legal principles set forth in Carter I.
She points out that the judge's remarks on the record,
explaining the guilty verdict, contain no express finding
that her words had a “coercive quality” that caused the
victim to follow through with his suicide. See Carter I,
474 Mass. at 634. However, those remarks were, as the
judge stated, not intended as a comprehensive
statement of all the facts he found or of all his legal
rulings. Moreover, HN3[ ] “judges in jury-waived trials
are presumed to know and correctly apply the law.”
Commonwealth v. Healy, 452 Mass. 510, 514, 895
N.E.2d 752 (2008), quoting Common- [*362] wealth v.
Watkins, 63 Mass. App. Ct. 69, 75, 823 N.E.2d 404
(2005). Finally, and perhaps most importantly, [***13]
rather than use our formulation, the judge expressly
tracked the elements of manslaughter. He found: “She
instructs [the victim] to get back into the truck, well
knowing of all of the feelings that he has exchanged
with her — his ambiguities, his fears, his concerns.”
This, the judge found, constituted “wanton and reckless
conduct by [the defendant], creating a situation where
there is a high degree of likelihood that substantial harm
would result to [the victim].”9 The judge [**568] then

“It is apparent to this Court in reviewing the
evidence that [the victim] was struggling
with [***14] his issues and seeing a way to address
them and took significant actions of his own toward
that end. His research was extensive. He spoke of
it continually. He secured the generator. He
secured the water pump. He researched how to fix
the generator. He located his vehicle in an
unnoticeable area and commenced his attempt by
starting the pump.

9 There

is no question in this case that the Commonwealth
proved beyond a reasonable doubt that the defendant
engaged in wanton or reckless conduct, that is, “intentional
conduct … involv[ing] a high degree of likelihood that
substantial harm will result to another.” Pugh, 462 Mass. at
496, quoting Welansky, 316 Mass. at 399. Both the objective
and subjective standards discussed above are satisfied. Given
the victim's mental illness, his previous suicide attempts, and
his suicide plans, there can be no doubt that an ordinary
person such as the defendant, his girlfriend who constantly
communicated with him, would understand the grave danger
to his life, and yet she continued to pressure him to follow
through with his plan. The difficult issue before us is not
whether the defendant's conduct was wanton or reckless, as

This finding is supported by the temporal distinctions
about causation drawn by the judge. Until the victim got
out of the truck, the judge described the victim as the
cause of his own suicidal actions and reactions. This
period of “self-causation” and “self-help,” which is
completely consistent with his prior behavior, ended
when he got out of the truck. As the judge explained:

“However, he breaks that chain of self-causation by
exiting the vehicle. He takes himself out of the toxic
environment that it has become. This is completely
consistent with his earlier [*363] attempts at
suicide. In October of 2012, when he attempted to
drown himself, he literally sought air. When he
exited the truck, he literally sought fresh air. And he
told a parent of that attempt.
“Several weeks later, in October of 2012 again, he
attempts, through the use of pills, to take his life but
calls a friend and assistance is sought and
treatment secured. That [the victim] may have tried
and maybe succeeded another time, after July 12
or 13 of 2014, is of no consequence to this Court's
deliberations.” (Emphasis added.)
The judge found that, once the victim left the truck, the
defendant overpowered the victim's will and thus caused
his death. As the defendant [***15] herself explained,
and we repeat due to its importance, “[The victim's]
death is my fault like honestly I could have stopped him
I was on the phone with him and he got out of the [truck]
because it was working and he got scared and I fucking
told him to get back in … because I knew he would do it
all over again the next day and I couldnt have him live
the way he was living anymore I couldnt do it I wouldnt
this is not a close question, but whether her conduct was the
cause of the victim's death.

Page 10 of 14
481 Mass. 352, *363; 115 N.E.3d 559, **568; 2019 Mass. LEXIS 83, ***15
let him.”
Although we recognize that legal causation in the
context of suicide is an incredibly complex inquiry, we
conclude that there was sufficient evidence to support a
finding of proof of such causation beyond a reasonable
doubt in the instant case. The judge could have properly
found, based on this evidence, that the vulnerable,
confused, mentally ill, eighteen year old victim had
managed to save himself once again in the midst of his
latest suicide attempt, removing himself from the truck
as it filled with carbon monoxide. But then in this
weakened state he was badgered back into the gasinfused truck by the defendant, his girlfriend and closest,
if not only, confidant in this suicidal planning, the person
who had been constantly pressuring him to complete
their often discussed [***16] plan, fulfill his promise to
her, and finally commit suicide. And then after she
convinced him to get back into the carbon monoxide
filled truck, she did absolutely nothing to help him: she
did not call for help or tell him to [**569] get out of the
truck as she listened to him choke and die.
In sum, the evidence at trial, in the light most favorable
to the Commonwealth, was sufficient to establish the
defendant's guilt beyond a reasonable doubt.
[ ] 2. Due process claims. The defendant argues that
she lacked fair notice that she could be convicted of
involuntary manslaugh- [*364] ter for her role in the
victim's suicide10 and that her conviction therefore
violated her right to due process. That is, she argues
that the law of involuntary manslaughter is
unconstitutionally vague as applied to her conduct. We
rejected this argument in Carter I, 474 Mass. at 631
n.11, and we remain of the view that the law is not
vague. HN4[ ] “A statute is unconstitutionally vague if
[people] of common intelligence must necessarily guess
at its meaning… . If a statute has been clarified by
judicial explanation, however, it will withstand a
challenge on grounds of unconstitutional vagueness.”
Id., quoting Commonwealth v. Crawford, 430 Mass. 683,
689, 722 N.E.2d 960 (2000). HN5[ ] “Manslaughter is
a common-law crime that has not been [***17] codified
by statute in Massachusetts.” Carter I, supra, quoting
Commonwealth v. Rodriquez, 461 Mass. 100, 106, 958
N.E.2d 518 (2011). It has long been established in our

common law that wanton or reckless conduct that
causes a person's death constitutes involuntary
manslaughter. See, e.g, Commonwealth v. Campbell,
352 Mass. 387, 397, 226 N.E.2d 211 (1967), and cases
cited (“Involuntary manslaughter is an unlawful
homicide, unintentionally caused … by an act which
constitutes such a disregard of probable harmful
consequences to another as to constitute wanton or
reckless conduct”). There is no doubt in this case that
the defendant wantonly or recklessly instructed the
victim to kill himself, and that her instructions caused his
death.
Moreover, in the development of our common law,
“conduct similar to that of the defendant has been
deemed unlawful.” Carter I, 474 Mass. at 631 n.11,
citing Persampieri v. Commonwealth, 343 Mass. 19, 2223, 175 N.E.2d 387 (1961). In Persampieri, supra, the
defendant was charged with murder, and pleaded guilty
to manslaughter, after his wife threatened to commit
suicide and he taunted her, saying she was “chicken —
and wouldn't do it,” loaded a rifle and handed it to her,
and, when she had difficulty firing the rifle, told her to
take off her shoes and reach the trigger that way. She
did so and killed herself. Id. at 23. We held that these
facts would “have warranted a jury in returning a
verdict [***18] of manslaughter.” Id. Nor is Persampieri
the only case in which we upheld a defendant's
conviction based on his participation in a suicide. See
Commonwealth v. Atencio, 345 Mass. 627, 627-628,
189 N.E.2d 223 (1963) (affirming conviction of
involuntary manslaughter arising [*365] from game of
“Russian roulette”). Indeed, the principle that a
defendant might be charged and convicted of a
homicide offense merely for “repeatedly and frequently
advis[ing] and urg[ing] [a victim] to destroy himself,” with
no physical assistance, can be found in centuries-old
Massachusetts common law. Commonwealth v. Bowen,
13 Mass. 356, 356 (1816). In the Bowen case, the
defendant was in the adjoining jail cell of the victim,
whom the defendant harangued into hanging himself.11
[**570] Id. It is true, as the defendant points out, that
the defendant in Bowen, who was charged with murder
for such alleged conduct, was in fact acquitted by the
jury. Id. at 360-361. But the legal principle that procuring
a suicide “by advice or otherwise” may constitute a
homicide is clear from the instructions reported in
Bowen. Id. at 359. In sum, HN6[ ] our common law

10 The

defendant characterizes her conduct as merely
“encouraging” the victim's suicide. As we have discussed at
length, however, it is clear from the judge's findings that she
did not merely encourage the victim, but coerced him to get
back into the truck, causing his death.

11 The

victim committed suicide by hanging hours before he
was to be hanged publicly for his own killing of his father.
Commonwealth v. Bowen, 13 Mass. 356, 356 (1816).

Page 11 of 14
481 Mass. 352, *365; 115 N.E.3d 559, **570; 2019 Mass. LEXIS 83, ***18
provides sufficient notice that a person might be
charged with involuntary manslaughter for reckless or
wanton conduct, including verbal conduct, causing a
victim to commit suicide. The law is not
unconstitutionally [***19] vague as applied to the
defendant's conduct.12
[ ] 3. Free speech claims. The defendant argues that
her conviction of involuntary manslaughter violated her
right to free speech under the First Amendment and art.
16.13 We disagree and thus reaffirm our conclusion in
Carter I that no constitutional violation results from
convicting a defendant of involuntary manslaughter for
reckless and wanton, pressuring text messages and
phone calls, preying upon well-known weaknesses,
fears, anxieties and promises, that finally overcame the
willpower to live of a mentally ill, vulnerable, young
person, thereby coercing him to commit suicide. Carter
I, 474 Mass. at 636 n.17. We more fully explain our
reasoning here.
HN7[ ] [*366] The crime of involuntary manslaughter
proscribes reckless or wanton conduct causing the
death of another. The statute makes no reference to
restricting or regulating speech, let alone speech of a
particular content or viewpoint: the crime is “directed at
a course of conduct, rather than speech, and the
conduct it proscribes is not necessarily associated with
speech”
(quotation
and
citation
omitted).
Commonwealth v. Johnson, 470 Mass 300, 308, 21
N.E.3d 937 (2014). The defendant cannot escape
liability just because she happened to use “words to
carry out [her] illegal [act].” Id. at 309, quoting United
States v. Barnett, 667 F.2d 835, 842 (9th Cir. 1982).
See Giboney v. Empire Storage & Ice Co., 336 U.S.
490, 502, 69 S. Ct. 684, 93 L. Ed. 834 (1949)
(upholding [***20] conviction for speech used as
“essential and inseparable part” of crime).

12 The

defendant points out that, unlike Massachusetts,
several other States, rather than relying on the common law,
have enacted statutes prohibiting aiding or assisting suicide
and specifying what conduct runs afoul of such statutes.
However, the fact that some State Legislatures have chosen
to address this problem by statute in no way prevents us from
concluding that Massachusetts common law provided the
defendant with fair notice that her conduct was prohibited.
13 As

in Commonwealth v. Walters, 472 Mass. 680, 690 n.26,
37 N.E.3d 980 (2015), S.C., 479 Mass. 277, 94 N.E.3d 764
(2018), we apply the same analysis under the First
Amendment to the United States Constitution and art. 16
of the Massachusetts Declaration of Rights.

Although numerous crimes can be committed verbally,
they are “intuitively and correctly” understood not to
raise First Amendment concerns. Schauer, Categories
and the First Amendment: A Play in Three Acts, 34
Vand. L. Rev. 265, 279 (1981). See K. Greenawalt,
Speech, Crime, and the Uses of Language 6-7 (1989)
(listing twenty-one examples of crimes committed using
speech). The same is true under art. 16. See, e.g.,
Commonwealth v. Disler, 451 Mass. 216, 222, 224-226,
884 N.E.2d 500 (2008) (defendant could not assert art.
16 defense to conviction of child enticement even
though crime could be committed by “words [spoken or
written] [**571] and nothing more”); Commonwealth v.
Sholley, 432 Mass. 721, 727, 739 N.E.2d 236 (2000),
cert. denied, 532 U.S. 980, 121 S. Ct. 1621, 149 L. Ed.
2d 484 (2001) (“no violation” of art. 16 where defendant
was convicted of making threat under G. L. c. 275, § 2).
HN8[ ] “It has never been deemed an abridgment of
freedom of speech … to make a course of conduct
illegal merely because the conduct was in part initiated,
evidenced, or carried out by means of language, either
spoken, written, or printed” (citation omitted). Johnson,
470 Mass. at 309.14 Indeed, the United States Supreme
Court has held that “speech or writing used as an
integral part of conduct in violation of a valid criminal
statute” is not protected by the First Amendment.
Giboney, 336 U.S. at 498. Accord United States v.
Stevens, 559 U.S. 460, [*367] 468-469, 130 S. Ct.
1577, 176 L. Ed. 2d 435 (2010). See Commonwealth v.
Chou, 433 Mass. 229, 236, 741 N.E.2d 17 (2001) (“true
threats” lack First Amendment protection because
“purpose is to [***21] cause injury rather than to add to,
or to comment on, the public discourse”).
The defendant contends nonetheless that prosecuting
and convicting her of involuntary manslaughter for
encouraging suicide effected a content-based restriction
on speech that does not withstand strict scrutiny. In
particular, she acknowledges the Commonwealth's
compelling interest in preserving human life but argues
that we failed to determine in Carter I, 474 Mass. at 636
n.17, that the restriction on speech was narrowly

14 Crimes

committed using text messages or other electronic
communications are treated no differently. See Walters, 472
Mass. at 696 (threat conveyed by “telecommunication device
or electronic communication device” would not receive First
Amendment or art. 16 protection [citation omitted]);
Commonwealth v. Johnson, 470 Mass. 300, 312, 21 N.E.3d
937 (2014) (there is no First Amendment protection for
electronic communications and Internet postings used to
commit harassment).

Page 12 of 14
481 Mass. 352, *367; 115 N.E.3d 559, **571; 2019 Mass. LEXIS 83, ***21
tailored to further that interest. We disagree. The only
speech made punishable in Carter I was “speech
integral to [a course of] criminal conduct,” Stevens, 559
U.S. at 468, citing Giboney, 336 U.S. at 498, that is, a
“systematic campaign of coercion on which the virtually
present defendant embarked — captured and preserved
through her text messages — that targeted the
equivocating young victim's insecurities and acted to
subvert his willpower in favor of her own,” Carter I,
supra. Other involuntary manslaughter prosecutions and
convictions have similarly targeted a course of criminal
conduct undertaken through manipulative wanton or
reckless speech directed at overpowering the will to live
of vulnerable victims. See Persampieri, 343 Mass. at
22-23; Bowen, 13 Mass. at 359-360.
As the Supreme Court has explained, “From
1791 [***22] to the present … HN9[ ] the First
Amendment has permitted restrictions upon the content
of speech in a few limited areas … which have never
been thought to raise any constitutional problems,”
including “speech integral to criminal conduct”
(quotations and citations omitted). Stevens, 559 U.S. at
468-469. We do not apply the narrow tailoring required
by strict scrutiny in these contexts but rather determine
whether the speech at issue falls within these “welldefined and narrowly limited classes of speech”
(quotation and citation omitted). Brown v. Entertainment
Merchants Ass'n, 564 U.S. 786, 804, 131 S. Ct. 2729,
180 L. Ed. 2d 708 (2011). Thus, there is nothing in the
prosecution or conviction of the defendant in the instant
case, or the prior involuntary manslaughter cases in the
Commonwealth involving verbal criminal [**572]
conduct, to suggest that the First Amendment has been
violated in any way. The only verbal conduct punished
as involuntary manslaughter has been the wanton or
reckless pressuring of a vulnerable person to commit
suicide, overpowering that person's will to live and
resulting in that person's death. We [*368] are
therefore not punishing words alone, as the defendant
claims, but reckless or wanton words causing death.
The speech at issue is thus integral to a course of
criminal conduct and thus does not raise any
constitutional problem. [***23]
Regardless, even if we were to apply strict scrutiny to
the verbal conduct at issue because it might implicate
other constitutionally protected speech regarding suicide
or the end of life, we would conclude that the restriction
on speech here has been narrowly circumscribed to
serve a compelling purpose. As we explained in Carter
I, 474 Mass. at 636, and reemphasize today, this case
does not involve the prosecution of end-of-life

discussions between a doctor, family member, or friend
and a mature, terminally ill adult confronting the difficult
personal choices that must be made when faced with
the certain physical and mental suffering brought upon
by impending death.15 Nor does it involve prosecutions
of general discussions about euthanasia or suicide
targeting the ideas themselves. See Texas v. Johnson,
491 U.S. 397, 414, 109 S. Ct. 2533, 105 L. Ed. 2d 342
(1989) (“If there is a bedrock principle underlying the
First Amendment, it is that the government may not
prohibit the expression of an idea simply because
society finds the idea itself offensive or disagreeable”).
Nothing in Carter I, our decision today, or our earlier
involuntary manslaughter cases involving verbal
conduct suggests that involuntary manslaughter
prosecutions could be brought in these very different
contexts without raising important [***24]
First
Amendment concerns. See Commonwealth v. Bigelow,
475 Mass. 554, 562, 59 N.E.3d 1105 (2016) (“In
considering the First Amendment's protective reach,
critical to the examination is the context and content of
the speech at issue” [quotation omitted]). We emphasize
again, however, that the verbal conduct targeted here
and in our past involuntary manslaughter cases is
different in kind and not degree, and raises no such
concerns. Only the wanton or reckless pressuring of a
person to commit suicide that overpowers that person's
will to live has been proscribed. This restriction is
necessary to further [*369] the Commonwealth's
compelling interest in preserving life. Thus, such a
prohibition would survive even strict scrutiny.
[ ] 4. “Infliction” of serious bodily harm. The defendant
argues that her conviction as a youthful offender cannot
survive under G. L. c. 119, § 54, because she did not
inflict serious bodily harm on the victim. She argues that
the term “infliction” in § 54 requires direct, physical
causation of harm, not mere proximate causation, and
that from her remote location, she could not have

15 In

Carter I, 474 Mass. at 636, we stated: “It is important to
articulate what this case is not about. It is not about a person
seeking to ameliorate the anguish of someone coping with a
terminal illness and questioning the value of life. Nor is it about
a person offering support, comfort, and even assistance to a
mature adult who, confronted with such circumstances, has
decided to end his or her life. These situations are easily
distinguishable from the present case, in which the grand jury
heard evidence suggesting a systematic campaign of coercion
on which the virtually present defendant embarked —
captured and preserved through her text messages — that
targeted the equivocating young victim's insecurities and acted
to subvert his willpower in favor of her own.”

Page 13 of 14
481 Mass. 352, *369; 115 N.E.3d 559, **572; 2019 Mass. LEXIS 83, ***24
inflicted serious bodily harm on the victim within the
meaning of [**573] the statute. We reject this unduly
narrow interpretation of the statutory language. HN10[
] The youthful offender statute authorizes an indictment
against [***25] a juvenile who is “alleged to have
committed an offense … involv[ing] the infliction or
threat of serious bodily harm” (emphasis added). G. L.
c. 119, § 54. By its terms, the statute requires that the
offense involve the infliction of serious bodily harm, not
that the defendant herself be the one who directly
inflicted it. If we were to interpret the statute to include
such a requirement, it is difficult to see how a juvenile
could be indicted as a youthful offender for, say, hiring a
third party to carry out an attack on a victim. It is
enough, as we said in Carter I, that “involuntary
manslaughter in these circumstances inherently
involves the infliction of serious bodily harm.” Carter I,
474 Mass. at 637 n.19.
[ ] 5. “Reasonable juvenile.” The defendant next
argues, as she did in Carter I, that her actions should
have been evaluated under a “reasonable juvenile”
standard rather than a “reasonable person” standard.16
As we said before,
HN11[ ] “Whether conduct is wanton or reckless is
‘determined based either on the defendant's
specific knowledge or on what a reasonable person
should have known in the circumstances… . If
based on the objective measure of recklessness,
the defendant's actions constitute wanton or
reckless conduct … [***26] if an [*370] ordinary
normal [person] under the same circumstances
would have realized the gravity of the danger… . If
based on the subjective measure, i.e., the
defendant's own knowledge, grave danger to others
must have been apparent and the defendant must
have chosen to run the risk rather than alter [his or

16 Unlike

in Carter I, 474 Mass. at 636 n.18, the defendant
raised this claim at trial by moving for a required finding of not
guilty on this ground (among others). The judge denied the
motion without stating his reasons, making it unclear to us
whether he rejected a “reasonable juvenile” standard as a
matter of law, determined that the evidence would be sufficient
to establish the defendant's guilt under a “reasonable juvenile”
standard, or determined that, regardless of whether an
objective “reasonable juvenile” standard was proper, the
evidence was sufficient to establish her guilt under a
subjective standard. The defendant did not press for a
“reasonable juvenile” standard in her closing argument. The
Commonwealth does not claim that the issue was not
preserved.

her] conduct so as to avoid the act or omission
which caused the harm’ (quotations and citation
omitted).”
Carter I, 474 Mass. at 631, quoting Pugh, 462 Mass. at
496-497. The defendant argues essentially that, when
considering a juvenile's actions under the objective
measure of recklessness, we should consider whether
an ordinary juvenile under the same circumstances
would have realized the gravity of the danger. It is clear
from the judge's findings, however, that he found the
defendant's actions wanton or reckless under the
subjective measure, that is, based on her own
knowledge of the danger to the victim and on her choice
to run the risk that he would comply with her instruction
to get back into the truck. That finding is amply
supported by the trial record. Because the defendant's
conduct was wanton or reckless when evaluated under
the subjective standard, there is no need to decide
whether a different objective standard should [***27]
apply to juveniles.
Moreover, it is clear from the judge's sentencing
memorandum that he did in fact consider the
defendant's age and maturity when evaluating her
actions and that he was familiar with the relevant case
law and “mindful” of the general principles regarding
juvenile brain development. He [**574] noted that on
the day of the victim's death, she was seventeen years
and eleven months of age and at an age-appropriate
level of maturity. Her ongoing contact with the victim in
the days leading to his suicide, texting with him about
suicide methods and his plans and demanding that he
carry out his plan rather than continue to delay, as well
as the lengthy cell phone conversations on the night
itself, showed that her actions were not spontaneous or
impulsive. And, as the judge specifically found, “[h]er
age or level of maturity does not explain away her
knowledge of the effects of her telling [the victim] to
enter and remain in that toxic environment, leading to
his death.” Where the judge found that the defendant
ordered the victim back into the truck knowing the
danger of doing so, he properly found that her actions
were wanton or reckless, giving sufficient consideration
to her age [***28] and maturity.
[ ] 6. Expert witness. Finally, the defendant argues that
the judge wrongly denied her motion in limine to admit
expert testimony by [*371] a forensic psychologist. The
witness would have testified as to general principles and
characteristics of the undeveloped adolescent brain, but
not as to the defendant specifically, as he had never
examined her. It is true, as the defendant argues, that

Page 14 of 14
481 Mass. 352, *371; 115 N.E.3d 559, **574; 2019 Mass. LEXIS 83, ***28
we have upheld the admission of similar testimony in
the past. See Commonwealth v. Okoro, 471 Mass. 51,
66, 26 N.E.3d 1092 (2015). But the fact that one judge
properly exercised his discretion to admit expert
testimony in one case does not mean that another judge
abused his discretion by excluding similar testimony in a
different case. We have reviewed the voir dire testimony
of the defendant's expert witness and conclude that the
judge did not abuse his discretion by determining that
the proffered testimony would not have aided the finder
of fact in the circumstances of this case. Moreover, after
the judge ruled on the motion in limine, the defendant
waived her right to a jury trial and proceeded before the
same judge. Where an experienced judge of the
Juvenile Court sat as the finder of fact in the defendant's
case, we cannot perceive any prejudice to [***29] the
defendant in his decision to preclude this expert
testimony in the circumstances of this case.
Conclusion. The evidence against the defendant proved
that, by her wanton or reckless conduct, she caused the
victim's death by suicide. Her conviction of involuntary
manslaughter as a youthful offender is not legally or
constitutionally infirm. The judgment is therefore
affirmed.

So ordered.

End of Document

